AMERICAN RECOVERY AND
REINVESTEMENT ACT:
Amtrak Has Taken Positive Steps to Safeguard Funds Used for
Concrete Tie Replacement Program




                                     OIG-E-2013-017 | September 19, 2013
   NATIONAL RAILROAD
   PASSENGER CORPORATION
                                                        Office of Inspector General


                              REPORT HIGHLIGHTS
                                         AMERICAN RECOVERY AND REINVESTMENT ACT: Amtrak Has Taken

Why We Did This Review                   Positive Steps to Safeguard Funds Used for Concrete Tie Replacement

                                            Program (Report No. OIG‐E‐2013‐017, September 19, 2013)


Between 1999 and 2007, Amtrak’s
Engineering department
                                       What We Found
discovered that more than 1.2          Amtrak has taken positive steps to proactively minimize the risk of
million concrete ties that they had    manufacturing defects in concrete ties.
installed on the Northeast
Corridor were prematurely              The company has negotiated a series of contracts with Rocla to
cracking. This forced Amtrak to        reduce the potential financial risks associated with any future
reduce train speeds on some            defective ties. The most recent contract, signed in June 2010, requires
portions of the corridor.              Rocla to maintain a quality assurance system acceptable to Amtrak.
                                       This system has been certified annually by two independent
Amtrak’s Engineering department        organizations. The contract also extends the warranty period during
has replaced approximately             which Amtrak can make claims to be reimbursed for all damages
609,000 of these ties. This effort     resulting from defectives ties from five to eight years.
has cost about $265 million, as of
September 30, 2012, which              Amtrak has maintained its commitment to monitor Rocla’s
included about $50 million             performance, with the same Amtrak engineer overseeing the
provided to Amtrak through the         production since May 2003. This has resulted in no observed defects
American Recovery and                  or reduction of train speeds on the Northeast Corridor as a result of
Reinvestment Act of 2009 (ARRA).       the quality of the ties manufactured and installed since 2003.
Rocla Concrete Tie, Inc. (Rocla ),     Although Amtrak has successfully implemented its quality assurance
manufactured the defective ties        practices, these practices are not yet fully described in enough detail
and is manufacturing their             to enable future Amtrak quality assurance personnel to uniformly
replacements. Therefore, this          continue current practices. During our evaluation, Engineering
report discusses Amtrak’s efforts      officials agreed and began to update the quality assurance plan, but
to safeguard the use of ARRA           this has not yet been completed.
funds in its concrete tie
replacement program, focusing on
its oversight of Rocla’s production
of replacement ties.



For further information, contact
Calvin Evans, Assistant Inspector     Recommendations
General for Inspections &              To ensure that Amtrak can continue its effective oversight of the
Evaluations (202) 906‐4507             production of the replacement ties, we recommend that the Chief
                                       Engineer ensure that the quality assurance plan is updated to fully
The full report is at                  describe current practices. The Chief Engineer concurred with this
www.amtrakoig.gov/reading‐room         recommendation.



                                 10 G Street, NE, 3W-300, Washington, D.C. 20002
                                   202.906.4600 / Fraud Hotline 800.468.5469
      NATIONAL RAILROAD 

      PASSENGER CORPORATION

                                              Office of Inspector General


Memorandum
To:              Bruce R. Pohlot, Chief Engineer

From:            Calvin E. Evans, Assistant Inspector General, Inspections & Evaluations

Date:            September 19, 2013

Subject:         American Recovery and Reinvestment Act: Amtrak Has Taken Positive Steps to
                 Safeguard Funds Used for Concrete Tie Replacement Program (Report No.
                 OIG‐E‐2013‐017)

Concrete railroad ties1 provide better track stability than traditional wood ties and
therefore enable higher train speeds. Between 1999 and 2007, Amtrak’s Engineering
department discovered that more than 1.2 million concrete ties that they had installed
on the Northeast Corridor between 1990 and 1999 were cracking prematurely.
According to Engineering, this represents about half of the total amount of concrete
ties on the Northeast Corridor, forcing Amtrak to reduce train speeds on some portions
of the corridor.

As of June 30, 2013, the Engineering department has replaced approximately 609,000
defective ties that were manufactured by Rocla Concrete Tie, Inc. (Rocla), between 1990
and 2000. This effort has cost about $265 million, as of September 30, 2012, of which
about $215 million was funded from the company’s general capital grants and about
$50 million was provided to Amtrak through the American Recovery and
Reinvestment Act of 2009 (ARRA).2 Amtrak plans to replace about 660,000 more ties by
the end of fiscal year 2018.

Rocla is manufacturing the replacement ties using new specifications that Amtrak
developed in 2003. Rocla was required to complete a series of qualifying tests in 2003
before Amtrak approved it to start producing replacement ties.

1 Railroad ties are used to support and stabilize the rails on a railway track. In 1978, Amtrak started to

replace wood ties with concrete railroad ties.

2 Public Law 111‐5.

                                                                                                              2
                          Amtrak Office of Inspector General
     American Recovery and Reinvestment Act: Amtrak Has Taken Positive Steps to 

            Safeguard Funds Used for Concrete Tie Replacement Program

                   Report No. OIG-E-2013-017, September 19, 2013

This report discusses Amtrak’s efforts to safeguard the use of ARRA funds in its
concrete tie replacement program, focusing on its oversight of the production of
replacement ties by Rocla. For a discussion of our scope and methodology, see
Appendix I.



THE RISK OF PROCURING DEFECTIVE TIES HAS BEEN
REDUCED

Amtrak has taken positive steps to proactively minimize the risk of concrete tie
manufacturing defects (as shown in Figure 1). The company has negotiated a series of
contracts with Rocla to reduce the potential financial risks associated with future
defective ties, with the most recent contract signed in June 2010. Amtrak has also
implemented and maintained an effective quality assurance process that has resulted
in no observed defects related to the quality of the ties manufactured and installed
since 2003. However, its current quality assurance plan does not yet fully describe its
current practices.

                 Figure 1: Defective Concrete Ties Removed from Track*




* Engineering officials told us that large pieces do not break off the ties until they are removed from the
track; however, the breaks indicate the degree of cracking found in the defective ties.

Source: Amtrak Engineering Department, June 7, 2012
                                                                                                        3
                             Amtrak Office of Inspector General
        American Recovery and Reinvestment Act: Amtrak Has Taken Positive Steps to 

               Safeguard Funds Used for Concrete Tie Replacement Program

                      Report No. OIG-E-2013-017, September 19, 2013

2010 Contract Reduced Amtrak’s Risk

Amtrak finalized a new concrete tie supply contract with Rocla in June 2010. The
company has committed approximately $53 million on this contract, as of June 3, 2013,
to procure replacement ties manufactured in accordance with the 2003 specifications.3
The contract contains provisions to reduce the potential financial risks to Amtrak by:

    •     Requiring Rocla to maintain a quality assurance system acceptable to Amtrak.
          This system is based on Rocla’s quality assurance manual, which provides
          guidance to all Rocla employees, and is managed by a quality assurance
          manager who has been working at Rocla’s production facility since 2003. In
          addition to conducting its own internal quality audits each year, Rocla has
          maintained its concrete production process certifications with the
          Precast/Prestressed Concrete Institute and the Association of American
          Railroads. Both of these organizations conduct annual reviews of Rocla’s
          operations.

    • 	 Extending the warranty period. The contract extends the period in which
        Amtrak can make claims to be reimbursed for all damages resulting from
        defectives ties from five to eight years. This includes the costs to procure and
        remove the defective ties. After the 8‐year period, Amtrak can be reimbursed
        only for the procurement cost of the defective tie through the 20‐year warranty
        period.



Amtrak Rigorously Monitors Rocla’s Performance

Amtrak has maintained its commitment to monitor Rocla’s performance and ensure
that the replacement ties are properly manufactured. In May 2003, Engineering
developed quality assurance processes to monitor the contractor’s performance and to
ensure that the requirements of the contract are met. Amtrak’s Deputy Chief Engineer–
Track is responsible for overseeing the contractor’s daily performance on behalf of



3In 2008, Amtrak brought in a third party to evaluate the specifications, which validated that the revised
design would meet Amtrak‘s requirements.
                                                                                                        4
                          Amtrak Office of Inspector General
     American Recovery and Reinvestment Act: Amtrak Has Taken Positive Steps to 

            Safeguard Funds Used for Concrete Tie Replacement Program

                   Report No. OIG-E-2013-017, September 19, 2013

Amtrak’s procurement office, and he assigned a senior engineer to oversee the
manufacturing of the replacement ties on a daily basis.

The senior engineer, who has been in this role since May 2003, routinely reports on
Rocla’s tie production to his supervisors and the contracting officer responsible for the
supply contract. These reports include weekly production and shipment statistics,
which are used to monitor tie inventory and modify production schedules, as
necessary, to meet the needs of the replacement program. The senior engineer also
reports on his inspections of Rocla’s quality control procedures. Figures 2‐4 show some
examples of the procedures used to monitor tie production.

             Figure 2: Amtrak Engineer Performing General Inspection of 

                Concrete Ties During the Removal of Ties from Molds 





Source: Amtrak OIG, taken during a site visit to a Rocla facility in Bear, Delaware, on June 11, 2013
                                                                                                        5
                          Amtrak Office of Inspector General
     American Recovery and Reinvestment Act: Amtrak Has Taken Positive Steps to
            Safeguard Funds Used for Concrete Tie Replacement Program
                   Report No. OIG-E-2013-017, September 19, 2013

   Figure 3: Amtrak Engineer Reviewing Rocla’s Concrete Tie Production Data*




* This photo shows Amtrak’s senior engineer reviewing whether the concrete was produced within the
specified temperature range.

Source: Amtrak OIG, taken during a site visit to a Rocla facility in Bear, Delaware, on June 11, 2013


       Figure 4: Amtrak Engineer Reviewing Strength Tests of Concrete Ties




Source: Amtrak OIG, taken during a site visit to a Rocla facility in Bear, Delaware, on June 11, 2013
                             Amtrak Office of Inspector General
        American Recovery and Reinvestment Act: Amtrak Has Taken Positive Steps to
               Safeguard Funds Used for Concrete Tie Replacement Program

                      Report No. OIG-E-2013-017, September 19, 2013

These efforts have resulted in almost all of the ties meeting Amtrak’s requirements.
Through Rocla’s and Amtrak’s inspection processes, significantly less than one percent
of the ties produced by Rocla have been rejected. For example, we reviewed Rocla’s
April 2013 production records for 6,840 ties and found that only 11 were rejected
because of visible defects.

Additionally, according to Amtrak officials, as of June 12, 2013, no quality‐related
defects have been observed in replacement ties that were installed on the Northeast
Corridor; therefore, Amtrak has not had to issue any slow orders due to ties
manufactured after 2003. To validate this, we reviewed 11 slow orders that were in
effect on June 12, 2013, due to concrete tie problems.4 For each of the slow orders,
Amtrak was able to trace the ties causing the slow orders to track and inspection
charts, confirming that the ties were manufactured prior to 2003.

Although Amtrak has successfully implemented its quality assurance practices, these
practices are not yet fully described in enough detail to enable future Amtrak quality
assurance personnel to uniformly continue current practices. For example, the current
plan does not include a complete description of how to verify whether the temperature
of the concrete during production is within specifications. During our evaluation,
Engineering officials agreed and began to update the quality assurance plan, but this
has not yet been completed.



CONCLUSIONS AND RECOMMENDATION

The efforts of Amtrak and Rocla to minimize the risk of defective ties have contributed
to safeguarding the ARRA funds used for Amtrak’s tie replacement program. To
ensure that Amtrak can continue its effective oversight of the production of the
replacement ties, we recommend that the Chief Engineer ensure that the quality
assurance plan is updated to fully describe current practices.




4   These slow orders were issued between July 9, 2010 and May 24, 2013.
                                                                                    7
                         Amtrak Office of Inspector General
    American Recovery and Reinvestment Act: Amtrak Has Taken Positive Steps to 

           Safeguard Funds Used for Concrete Tie Replacement Program

                  Report No. OIG-E-2013-017, September 19, 2013


MANAGEMENT COMMENTS AND OIG ANALYSIS

Amtrak’s Chief Engineer provided us with comments on a draft of this report on
September 12, 2013, in which he concurred with our recommendation and established
a time frame in which Amtrak will implement it (see Appendix II). We consider his
comments responsive to our recommendation.

We appreciate the courtesies and cooperation that Amtrak representatives extended to
us during the course of this review. If you have any questions, please contact me
(Calvin.Evans@amtrakoig.gov, 202.906.4507) or Jason Venner, Senior Director
(Jason.Venner@amtrakoig.gov, 202.906.4405).

cc:	 Joseph H. Boardman, President and Chief Executive Officer
     Eleanor D. Acheson, Vice President, General Counsel & Corporate Secretary
     Dan M. Black, Acting Chief Financial Officer
     Stephen J. Gardner, Vice President, NEC Infrastructure and Investment
       Development
     Polly Hanson, Chief of Police
     Matthew F. Hardison, Chief Marketing and Sales
     Joseph H. McHugh, Vice President, Government Affairs and Corporate
       Communications
     Barry Melnkovic, Chief Human Capital Officer
     Jason Molfetas, Chief Information Officer
     Donald J. Stadtler, Jr., Vice President, Operations
     Susan Reinertson, Chief, Emergency Management and Corporate Security
     Mark Yachmetz, Chief, Corporate Research & Strategy
     John J. Martin, Chief Logistics Officer
     Matthew Gagnon, Senior Director, Business Processes and Management Controls
     Melantha Page, Senior Audit Liaison
                         Amtrak Office of Inspector General
    American Recovery and Reinvestment Act: Amtrak Has Taken Positive Steps to 

           Safeguard Funds Used for Concrete Tie Replacement Program

                  Report No. OIG-E-2013-017, September 19, 2013

                                      Appendix I

                      SCOPE AND METHODOLOGY

This report provides the results of our evaluation of the use of funds provided through
ARRA to replace concrete railroad ties. The objective of this report is to discuss the
extent of Amtrak’s efforts to safeguard the use of ARRA funds in its concrete tie
replacement program, focusing on its oversight of the production of replacement ties
by Rocla. We performed our work from May through July 2013 in Washington, D.C.,
Philadelphia, and Bear, Delaware.

To address our objective, we obtained documentation on Amtrak’s concrete tie
replacement program and information from officials in Amtrak’s Engineering,
Procurement and Material Management, and Law departments. We reviewed
Amtrak’s contracts with Rocla and other associated documents, including Law
department memorandums and settlement agreements, technical specifications,
quality assurance documentation, inspection reports, acceptance reports, and a third‐
party concrete tie assessment report. We reviewed Engineering’s quality assurance
plan and evaluated the extent to which the plan followed the requirements specified in
Amtrak’s procurement manual. We also reviewed and analyzed reports of Amtrak’s
quality assurance efforts and evaluated the results of the quality assurance process. In
addition, we visited Rocla’s manufacturing plant in Bear, Delaware and interviewed
contractor personnel, reviewed and observed Rocla’s quality assurance procedures,
and observed Amtrak personnel overseeing the daily production and testing of
concrete ties.

We performed this evaluation in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the evaluation
to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our objectives.



Internal Controls

In conducting the evaluation, we reviewed Amtrak’s controls over its tie replacement
program in the context of our objectives. Specifically, we reviewed Amtrak’s and
                                                                                      9
                         Amtrak Office of Inspector General
    American Recovery and Reinvestment Act: Amtrak Has Taken Positive Steps to 

           Safeguard Funds Used for Concrete Tie Replacement Program

                  Report No. OIG-E-2013-017, September 19, 2013

Rocla’s controls over the production of replacement ties. We determined that these
controls were adequate, as evidenced by the results of the production process. We
presented the results of our review in the body of this report.



Use of Computer-Processed Data

We did not rely on computer‐processed data to determine the findings or conclusions
of this report.



Prior Reports

We did not rely on any prior reports from OIG or other oversight organizations to
determine the findings or conclusions of this report.
                                                                                                               10
                     Amtrak Office of Inspector General
American Recovery and Reinvestment Act: Amtrak Has Taken Positive Steps to
       Safeguard Funds Used for Concrete Tie Replacement Program
              Report No. OIG-E-2013-017, September 19, 2013



                                               Appendix II

   COMMENTS FROM AMTRAK'S CHIEF ENGINEER



                                                                            ~AMTRAK



        Memorandum

        To:             Calvin E. Evans, Assistant Inspector General, Inspections and Evaluations

        From:           Bruce R. Pohlot, Jr., Chief Engineer   foP
        cc:             Melantha Paige, William Bates, David Staplin

        Date:           September 11, 2013

        Subject:        Response to American Recovery and Reinvestment Act: Amtrak Has Taken
                        Positive Steps to Safeguard Funds Used for Concrete Tie Replacement Program
                        (Draft Evaluation Report 011-2013)




        I have reviewed the Draft Evaluation Report 011-2013 and concur with the findings and
        recommendations. I agree that the efforts of the Amtrak Engineering Department to minimize the
        risk of defective concrete ties have contributed to safeguarding the ARRA funds used for
        Amtrak's tie replacement program. The risk of procuring defective ties has been greatly reduced,
        and the 2010 contract for concrete tie procurement has also reduced Amtrak's risk. Amtrak's
        Engineering Department rigorously monitors Rocla's performance in the production of the new
        concrete ties.

        There are many speCifications and procedures, both Rocla's and Amtrak's, that are followed in
        the production of the new concrete ties. Quality assurance of each of these existing
        specifications and procedures result in the reduction and elimination of defective tie production.
        The effective oversight of these specifications and procedures by the Amtrak Engineering
        Department has proved that the concrete ties produced meet or exceed these requirements.

        I concur with the recommendation that the Amtrak Engineering Department update the quality
        assurance plan to fully describe the current practices for effective oversight of the concrete tie
        production. The quality assurance plan will contain the practices currently employed to monitor
        the manufacture of concrete ties, and will illustrate the steps taken in these practices. The update
        of the quality assurance plan is currently underway, and will be completed by the end of the 2013
        calendar year.
                                                                                     11
                           Amtrak Office of Inspector General
      American Recovery and Reinvestment Act: Amtrak Has Taken Positive Steps to 

             Safeguard Funds Used for Concrete Tie Replacement Program

                    Report No. OIG-E-2013-017, September 19, 2013

                                         Appendix III

                               ABBREVIATIONS

ARRA          American Recovery and Reinvestment Act of 2009
OIG           Office of Inspector General
Rocla         Rocla Concrete Tie, Inc.
                                                                                 12
                         Amtrak Office of Inspector General
    American Recovery and Reinvestment Act: Amtrak Has Taken Positive Steps to
           Safeguard Funds Used for Concrete Tie Replacement Program
                  Report No. OIG-E-2013-017, September 19, 2013

                                    Appendix V 


                           OIG TEAM MEMBERS


Calvin Evans, Assistant Inspector General, Inspections and Evaluations

Jason Venner, Senior Director, Inspections and Evaluations

Larry Chisley, Lead Evaluator

Timothy Wells, Principal Operations Analyst
                                                                                   13
                         Amtrak Office of Inspector General
    American Recovery and Reinvestment Act: Amtrak Has Taken Positive Steps to
           Safeguard Funds Used for Concrete Tie Replacement Program
                  Report No. OIG-E-2013-017, September 19, 2013



           OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission	        The Amtrak OIG’s mission is to provide independent,
                             objective oversight of Amtrak’s programs and operations
                             through audits, inspections, evaluations, and
                             investigations focused on recommending improvements
                             to Amtrak’s economy, efficiency, and effectiveness;
                             preventing and detecting fraud, waste, and abuse; and
                             providing Congress, Amtrak management, and Amtrak’s
                             Board of Directors with timely information about
                             problems and deficiencies relating to Amtrak’s programs
                             and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony

To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                             Web:      www.amtrakoig.gov/hotline
                             Phone:    800-468-5469

Congressional and            Calvin E. Evans
Public Affairs               Assistant Inspector General, Inspections and Evaluations
                             Mail:     Amtrak OIG             	
                                       10 G Street NE, 3W-300
                                       Washington, DC 20002
                             Phone:    202-906-4507               	
                             E-mail:   calvin.evans@amtrakoig.gov	
